                                         i                                       1
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11Case Number: A-03060037            .                                                       Page 1 of 1


                                                                                              .\


          On 25 June 2003, we received an allegation that the subject,' an NSF ad hoc reviewer and
          panelist for an NSF proposal,2 breached the confidentiality of the review process. Specifically,
          as a panelist, the subject heard a brief discussion about the PI on the NSF proposal. The
          discussion concerned the PI'S alleged prior unethical behavior, which was unrelated to the NSF
          proposal. The program officer appropriately halted the discussion. We confirmed that additional
          steps taken by the program officer and the Division Director ensured the fairness of the merit
          review process. After the subject returned home, however, he emailed several people about the
          discussion at the panel meeting. He sent on email to the PI on the proposal and other emails to
          several individuals who were not involved in the NSF review of the proposal.

          The subject explained that his actions were guided by his belief that the accused PI had the right
          to defend himself. The subject's admission that he had breached the confidentiality of the review
          process is contrary to the policies of the National Science Board (NSB) and NSF. None of the
          information shared by the subject involved the contents of the PI'S proposal. We wrote to the
          subject explaining that it was the NSB's policy that allegations of unethical behavior be taken to
          the OIG to ensure appropriate rules and regulations are followed. We stated that if he served as
          an NSF panelist or acted as an NSF ad hoc reviewer in the future, he must take seriously the
          confidentiality he agrees to abide by with respect to information learned in the process. We
          encouraged the subject to contact our office in the future if he had any questions about what to
          do or how to deal with confidential information he learned in the review process.

          This case is closed and no further action will be taken.




II
 NSF OIG Form 2 (11/02)
